SUPREME COURT OF THE UNITED STATES
Docket No. 20-216

PRIANKA BOSE,
Petitioner,
CERTIFICATE OF SERVICE
RHODES COLLEGE and ROBERTO DE
LA SALUD BEA,
Respondents.

I certify that I served a copy of this request for an extension on the following counsel via the
manner indicated below on the 16th of September, 2020:
Via U.S. Regular First Class Mail, Email and
eFile system of the U.S. Supreme Court:
Allon Kedem
Counsel for Petitioner
Arnold & Porter Kaye Scholer LLP
601 Massachusetts Avenue NW
Washington, DC 20001
allon.kedem@arnoldporter.com
All parties required to be served have been served.
Dated: September 16, 2020
/s/ Lisa S. Blatt
Lisa S. Blatt
Williams & Connolly LLP
lblatt@wc.com

